APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Opinion of the United States Court of Appeals for
the Fourth Circuit (March 25, 2021) ................. 1a
Judgment of the United States Court of
Appeals for the Fourth Circuit
(March 25, 2021) ............................................... 15a
Order of the United States District Court for the
Eastern District of Virginia
(December 6, 2019) ........................................... 17a
Order of the District Court on Motion to Dismiss
(May 31, 2019) .................................................. 20a
REHEARING ORDER
Order of the United States Court of Appeals for
the Fourth Circuit Denying Petition for
Rehearing (April 19, 2021) ............................... 22a
OTHER DOCUMENTS
Petition for Rehearing of
Appellee France.com, Inc. (April 8, 2021) ....... 24a

App.1a
OPINION OF THE UNITED STATES COURT
OF APPEALS FOR THE FOURTH CIRCUIT
(MARCH 25, 2021)
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
________________________
FRANCE.COM, INC., A CALIFORNIA CORPORATION,
Plaintiff-Appellee,
v.
THE FRENCH REPUBLIC; ATOUT FRANCE;
THE MINISTRY FOR EUROPE AND FOREIGN
AFFAIRS; FRANCE.COM, A DOMAIN NAME,
Defendants-Appellants.
and
JEAN-YVES LE DRIAN, IN HIS OFFICIAL CAPACITY AS
THE FRENCH REPUBLIC’S MINISTER FOR EUROPE AND
FOREIGN AFFAIRS; VERISIGN, INC.,
Defendants.
________________________
No: 20-1016
Appeal from the United States District Court
for the Eastern District of Virginia, at Alexandria.
Liam O’Grady, Senior District Judge.
(1:18-cv-00460-LO-IDD)
Before: MOTZ, FLOYD and RUSHING,
Circuit Judges.

App.2a
DIANA GRIBBON MOTZ, Circuit Judge:
This appeal involves a dispute as to the ownership
of the domain name <France.com>. In 1994, a California corporation, France.com, Inc. (“the Corporation”)
purchased and registered the domain name <France.
com> and trademarks for “France.com.” Twenty years
later, the Corporation initiated a lawsuit in France
alleging that a Dutch company’s use of the France.com
trademark constituted trademark infringement. The
French Republic and its tourism office intervened,
seeking to protect their country’s identity on the
Internet and establish its right to the domain name
<France.com>. Following extensive litigation, French
trial and appellate courts declared the French
Republic the rightful owner of the domain name.
The Corporation then filed this action in federal
district court against the French entities, which moved
to dismiss the case, asserting sovereign immunity
under the Foreign Sovereign Immunities Act (“FSIA”),
28 U.S.C. § 1604. After the district court denied the
motion, concluding that entitlement to immunity
“would be best raised after discovery has concluded,”
the French entities timely appealed. For the reasons
that follow, we reverse the judgment of the district
court and remand the case with instructions to dismiss
the complaint with prejudice.
I.
A.
In 1994, Jean-Noel Frydman purchased and registered the domain name <France.com>, which sold
various services relating to travel in France, including
tours and lodging. Frydman incorporated his business

App.3a
in California as France.com, Inc. and assigned his
interest in the domain name to the California corporation. He also trademarked “France.com” in
the United States and in the European Union.
In May 2014, the Corporation sued a Dutch
company in the Tribunal de Grande Instance de Paris
(“Paris District Court”), alleging trademark infringement and seeking transfer of trademarks containing
the words “France.com.” In April 2015, the French
Republic and Atout France, its tourism agency, intervened in that litigation. They asserted the exclusive
right to use the term “France” commercially, contending that under French law, the name “France” cannot
be appropriated or used commercially by a private
enterprise because doing so violates the French Republic’s exclusive right to its name and infringes on its
sovereignty. They further asserted that “France”
expresses the country’s “geographic, historic, economic
and cultural identity.” The Corporation opposed the
attempt to intervene.
In November 2015, the Paris District Court permitted intervention and agreed with the French entities
that the Corporation’s use of the domain name “infringes the rights of the French State to its name, which
refers to a sovereign state and identifies [the] country.”
The court concluded that the transfer of the domain
name <France.com> to the French Republic was
appropriate.
The Corporation appealed to the Cour d’Appel de
Paris (“Paris Court of Appeals”), which on September
22, 2017, affirmed the order of the Paris District Court.
The Paris Court of Appeals explained that “the designation ‘France’ constitutes for the French State an
element of identity akin to the family name of a

App.4a
natural person.” The Corporation then appealed to the
Cour de Cassation (“French Supreme Court”), where
we are told the case is now pending.
In March 2018, the French entities presented a
copy of the Paris Court of Appeals decision to the
domain name registrar Web.com—which was then
hosting <France.com>—and Web.com transferred the
domain name to Jean-Yves Le Drian, the Minister of
Europe and Foreign Affairs of the French Republic.
B.
A month later, the Corporation filed this action
in the District Court for the Eastern District of
Virginia against the French Republic, Atout France,
the Ministry for Europe and Foreign Affairs, Le Drian,
the domain name <France.com>, and the domain
registry Verisign, Inc. The Corporation alleged that
the defendants engaged in cybersquatting and reverse
domain name hijacking in violation of the Anticybersquatting Consumer Protection Act, trademark infringement, federal unfair competition, and expropriation.
The Corporation voluntarily dismissed the claims
against Verisign. The French Republic, Atout France,
the Ministry for Europe and Foreign Affairs, and
<France.com> moved to dismiss, arguing that the
Corporation failed to state a claim upon which relief
could be granted and that they possessed sovereign
immunity under the FSIA. The district court concluded
that entitlement to FSIA immunity “would best be
raised after discovery has concluded,” but granted the
motion to dismiss for failure to state a claim without
prejudice and invited the Corporation to file an
amended complaint. When the French entities noted an
appeal, we dismissed for lack of jurisdiction. France.

App.5a
com, Inc. v. The French Republic et al., No. 19-1659 (4th
Cir. Aug. 27, 2019) (ECF No. 23). Because the district
court’s dismissal was without prejudice, we concluded
that it was neither a final order nor an appealable
interlocutory or collateral order. See Goode v. Cent.
Va. Legal Aid Soc’y, Inc., 807 F.3d 619, 623-24 (4th
Cir. 2015).
Soon after, the Corporation filed an amended complaint and the French Republic, Atout France, the
Ministry for Europe and Foreign Affairs, and <France.
com> again moved to dismiss. They did not assert that
the Corporation failed to state a claim but instead
relied on their asserted entitlement to FSIA immunity.
The district court dismissed the claims against Le
Drian after the United States filed a “Suggestion of
Immunity.” However, the court refused to dismiss
the action as to the other defendants, again reasoning
that possible FSIA immunity did “not call for dismissal
at this time” but “would be best raised after discovery
has concluded.” The French Republic, Atout France,
the Ministry for Europe and Foreign Affairs, and
<France.com> (collectively, the “French State”) then
noted this appeal.
II.
In a preliminary motion, the Corporation again
challenged our jurisdiction to hear the French State’s
appeal. We concluded that we have jurisdiction over
the instant appeal because the district court rested its
order not on a failure to state a claim but solely on a
denial of sovereign immunity, which constitutes an
appealable collateral order. France.com, Inc. v. The
French Republic, et al., No. 20-1016 (4th Cir. March 27,
2020) (ECF No. 25); see Abelesz v. Magyar Nemzeti

App.6a
Bank, 692 F.3d 661, 667 (7th Cir. 2012) (“[W]e and
other circuits treat denials of sovereign immunity
defenses as appealable collateral orders.”). We review
de novo the district court’s denial of sovereign immunity under the FSIA. Wye Oak Tech., Inc. v. Republic
of Iraq, 666 F.3d 205, 212 (4th Cir. 2011).
We first address the district court’s concern that
its final decision on sovereign immunity should be
postponed pending discovery. The Supreme Court
has instructed that the existence of sovereign immunity
under the FSIA constitutes a “threshold” question.
See, e.g., Verlinden B.V. v. Cent. Bank of Nigeria, 461
U.S. 480, 493 (1983). While jurisdictional discovery can
sometimes be appropriate, it cannot “supplant the
pleader’s duty to state those facts at the outset of the
case.” Arriba Ltd. v. Petroleos Mexicanos, 962 F.2d 528,
534 n.17 (5th Cir. 1992). Indeed, because the FSIA
seeks to “free a foreign sovereign from suit,” immunity
should be addressed “as near to the outset of the
case as is reasonably possible.” Bolivarian Republic of
Venezuela v. Helmerich & Payne Int’l Drilling Co., 137
S. Ct. 1312, 1317 (2017).
The FSIA provides that a “foreign state” enjoys
immunity “from the jurisdiction of the courts of the
United States” unless a specific, enumerated exception
applies. 28 U.S.C. § 1604; OBB Personenverkehr AG v.
Sachs, 577 U.S. 27, 31 (2015). The Corporation does not
contend that any of the remaining defendants fails to
qualify as a “foreign state” within the meaning of the
FSIA. See id. § 1603(a), (b) (“foreign state” includes “an
agency or instrumentality of a foreign state”). Thus,
the defendants are “presumptively immune from the
jurisdiction of United States.” Sachs, 577 U.S. at 31.

App.7a
To overcome the FSIA presumption of immunity,
a complaint must set forth “sufficient facts to support
a reasonable inference that [the] claims” satisfy one of
the specific, enumerated exceptions in the FSIA. Rux
v. Republic of Sudan, 461 F.3d 461, 468 (4th Cir.
2006). The Corporation maintains that its complaint
sets forth sufficient facts to establish two of the
exceptions: the “commercial activity” exception, see 28
U.S.C. § 1605(a)(2), and the “expropriation” exception,
see id. § 1605(a)(3). Accordingly, we turn to consideration of those exceptions.
III.
The “commercial activity” exception strips foreign
states of immunity in cases “based upon a commercial
activity carried on in the United States by the
foreign state; or upon an act performed in the United
States in connection with a commercial activity of the
foreign state elsewhere; or upon an act outside the
territory of the United States in connection with a
commercial activity of the foreign state elsewhere
and that act causes a direct effect in the United States.”
28 U.S.C. § 1605(a)(2). The FSIA defines “commercial
activity” as “either a regular course of commercial
conduct or a particular commercial transaction or act.”
Id. § 1603(d).
The FSIA mandates that the “commercial character” of an activity “be determined by reference to the
nature of the course of conduct,” not “by reference to its
purpose.” Id. § 1603(d). Thus, “the issue is whether the
particular actions that the foreign state performs
(whatever the motive behind them) are the type of
actions by which a private party engages in ‘trade and
traffic or commerce.’” Republic of Argentina v.

App.8a
Weltover, Inc., 504 U.S. 607, 614 (1992) (quoting Black’s
Law Dictionary 270 (6th ed. 1990)). A foreign sovereign
engages in “commercial activity” only when it exercises
“those powers that can also be exercised by private
citizens,” not when it employs “powers peculiar to
sovereigns.” Id. (quoting Alfred Dunhill of London,
Inc. v. Republic of Cuba, 425 U.S. 682, 704 (1976)).
In determining whether the commercial activity
exception applies here, we begin by identifying the
conduct on which the action is “based.” See Saudi
Arabia v. Nelson, 507 U.S. 349, 356 (1993); see also
Garb v. Republic of Poland, 440 F.3d 579, 586 (2d Cir.
2006) (noting that the “threshold step” is identifying
the “act of the foreign sovereign State that serves as
the basis for plaintiffs’ claims”). To do so, we look to
the “gravamen of the complaint,” meaning the “basis”
or “foundation” for it. Nelson, 507 U.S. at 357 (citing
Callejo v. Bancomer, S.A., 764 F.2d 1101, 1109 (5th Cir.
1985)). We examine the “core of [the] suit,” that is, the
“acts that actually injured” the plaintiff. Sachs, 577
U.S. at 35.
The Corporation argues that the act providing the
basis for its suit is the French State’s use of <France.
com> to offer links to tours, accommodations, restaurants and other tourism resources and to sell advertisements. But study of the complaint makes clear that
the conduct that the Corporation asserts “actually
injured” it is not subsequent use of the website, but the
adverse French judgment holding that <France.com>
properly belongs to the French State. All asserted
injuries alleged in the complaint flow from that French
judgment. Cf. Valambhia v. United Republic of Tanzania, No. 18-cv-370, 2019 WL 1440198, at *4 (D.D.C.
Mar. 31, 2019), aff’d, 964 F.3d 1135 (D.C. Cir. 2020)

App.9a
(holding an action for recognition of a foreign judgment
was not a “commercial activity” because courts may
not “consider the underlying commercial conduct
that gave rise to the foreign judgment”).
For example, the complaint repeatedly alleges
that the French State’s use of the website and “any
commercial revenue flowing from” that use are a
“direct result of [the French State] illegally seizing the
<[F]rance.com> website domain from plaintiff.” It further alleges that the French State “illegally seiz[ed] the
<[F]rance.com> website domain”; that the French
State “misused the French judicial system to seize the
domain from Plaintiff”; that the French State “lack[ed]
[] authority to seize property”; and that the French
State “usurp[ed]” and “expropriated” the domain name.
As explained below, it is not at all clear that the
French State’s actions in obtaining the website in a
judicial proceeding constitute a “seizure” or an “expropriation” for purposes of the FSIA’s “expropriation”
exception to immunity. But even if those actions did
constitute an “expropriation” under the FISA, they
clearly do not constitute a “commercial activity.”
Rather, it is well established that a “seizure” by a
foreign government constitutes a sovereign activity.
See, e.g., de Csepel v. Republic of Hungary, 714 F.3d
591, 600 (D.C. Cir. 2013) (“expropriation ‘constitute[s]
a quintessentially sovereign act’ falling outside the
scope of the commercial activity exception”) (cleaned
up); Hunt v. Mobil Oil Corp., 550 F.2d 68, 73 (2d Cir.
1977) (“Expropriations . . . are traditionally considered
to be public acts of the sovereign removed from judicial scrutiny.”). The complaint’s repeated references to
the French State’s “seizure” of the domain name
makes clear that this case is “in essence based on

App.10a
disputed takings of property,” and not any “subsequent
treatment” of that property. Garb, 440 F.3d at 586,
588.
Nor does it matter what motivated the French
State to intervene in the French lawsuit for purposes
of the commercial activity exception. The Corporation
suggests that France sought to take control of the
domain name in order to take advantage of the Corporation’s “market share.” And the complaint quotes a
French official stating that “[i]t is imperative to take
advantage of the www.France.com domain name to
ensure our tourist promotion.” But the Supreme Court
has repeatedly held that the text of the FSIA requires
us to examine the nature, or the “outward form of the
conduct that the foreign state performs,” rather than
the purpose, or the “reason why the foreign state
engages in the activity.” Weltover, 504 U.S. at 617; see
also Nelson, 507 U.S. at 361-62.
Finally, to the extent that the Corporation contends that only the transfer of the domain name
harmed it, and not the preceding court judgment, that
argument too fails. The French judgment—which was
affirmed by an appellate court—provided the sole basis
for France’s request to Web.com to transfer the domain
name. Without the judgment issued by the French trial
and appellate courts, there would have been no ground
for the request. In sum, none of the conduct that the
Corporation alleges harmed it would have occurred
without that judgment. See Garb, 440 F.3d at 587.
The Corporation’s attempt to reframe this case as
one about competitive harm in order to “evade the
Act’s restrictions through artful pleading” fails. Sachs,
577 U.S. at 36.

App.11a
The Corporation’s claims arise from an adverse
judgment of a foreign court—in a proceeding initiated
by the Corporation itself—resulting in the transfer of
the domain name, not any commercial activity that
may have followed that transfer. Accordingly, the
commercial activity exception to FSIA immunity
does not apply.
IV.
The Corporation also invokes the “expropriation”
exception to FSIA immunity. The expropriation exception applies when property is “taken in violation of
international law” and that property is either “present
in the United States in connection with a commercial
activity carried on in the United States by the foreign
state” or “owned or operated by an agency or instrumentality of the foreign state and that agency or instrumentality is engaged in a commercial activity in the
United States.” 28 U.S.C. § 1605(a)(3). To establish the
expropriation exception, a plaintiff must show that “(1)
rights in property are in issue; (2) that the property
was ‘taken’; (3) that the taking was in violation of
international law; and (4) that one of the two nexus
requirements is satisfied.” Zappia Middle E. Constr.
Co. v. Emirate of Abu Dhabi, 215 F.3d 247, 251 (2d
Cir. 2000).
The complaint’s factual allegations do not permit
a reasonable inference that its claims satisfy the
expropriation exception. First, it is unclear whether
the alleged conduct qualifies as an “expropriation” for
FSIA purposes. The French State did not engage in
“the nationalization” of the website. Id. (citing H.R.
Rep. No. 94-1487, at 19 (1976), reprinted in 1976 U.S.
C.C.A.N. 6604, 6618). Nor did the French State take

App.12a
the property through eminent domain. See Expropriation, BLACK’S LAW DICTIONARY (11th ed. 2019) (“A
governmental taking or modification of an individual’s property rights, esp. by eminent domain;
CONDEMNATION”).
Rather, French courts held that the French State
owns the word “France” because it is integral to its
identity as a nation, and so was also entitled to
<France.com>. The French courts so held after the
French State intervened in litigation in France
initiated by the Corporation itself. And the French
courts acted only after years of litigation. Although
the Corporation now asserts the French courts were
biased, it points to nothing that suggests it did not
receive a full and fair (and lengthy) opportunity to
present its position.
But even if the French judicial decree constitutes
an “expropriation” for purposes of the FSIA, the Corporation fails to identify any international law that
this “expropriation” violated. See Fed. Republic of
Germany v. Philipp, 141 S. Ct. 703, 715 (2021) (holding
that the international law of property governs whether
a foreign sovereign committed a taking in violation of
international law). The Corporation argues repeatedly
that the French court applied French law in a way
that conflicts with or is “hostile to” the laws of the
United States. Even if this is accurate, it does not
demonstrate a violation of international law, as is
required to satisfy the expropriation exception to
FSIA immunity. Id. at 714 (“United States law governs
domestically but does not rule the world.” (citing
Kiobel v. Royal Dutch Petroleum Co., 569 U.S. 108, 115
(2013)).

App.13a
The Corporation also asserts that the French
courts had no authority to declare the domain name
<France.com> the property of the French State. The
Corporation claims that the order doing so is “specious”
and was rendered absent “legitimate legal process.”
Other than assertedly reaching a result contrary to the
laws of the United States, the Corporation does not
explain or even allege how this is so. The French courts
are courts of competent jurisdiction. Neither in its
amended complaint nor its brief does the Corporation
assert facts supporting a claim that the French legal
process was not “legitimate.” Moreover, this would
seem to be a difficult and unlikely claim given that the
Corporation itself invoked the power of the French
courts. Only because it did so could the French State
intervene in that action to obtain the result challenged
here.
In short, the Corporation has alleged no “expropriation” in violation of international law, and thus
the expropriation exception to the FSIA also does not
apply.*

* The Corporation’s brief argument that a United States court can
exercise in rem jurisdiction over the domain name <France.com>
also fails. Under the FSIA, foreign property is immune from prejudgment arrest unless three conditions are satisfied: the property
is “used for a commercial activity in the United States”; the
foreign state “has explicitly waived its immunity from attachment
prior to judgment”; and the purpose of the attachment is to
“secure satisfaction of a judgment” that may be entered against
the foreign state, and “not to obtain jurisdiction.” 28 U.S.C. §§ 1609,
1610(d)(1), (2). France has certainly not waived immunity, and
the Corporation seeks arrest of <France.com> to obtain jurisdiction. Thus, the Corporation asserts no basis for in rem jurisdiction.

App.14a
V.
For the foregoing reasons, we reverse the judgment
of the district court. We remand the case with instructions to dismiss with prejudice for lack of subject
matter jurisdiction under the FSIA.
REVERSED AND REMANDED WITH INSTRUCTIONS

App.15a
JUDGMENT OF THE UNITED STATES COURT
OF APPEALS FOR THE FOURTH CIRCUIT
(MARCH 25, 2021)
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
________________________
FRANCE.COM, INC., A CALIFORNIA CORPORATION,
Plaintiff-Appellee,
v.
THE FRENCH REPUBLIC; ATOUT FRANCE; THE
MINISTRY FOR EUROPE AND FOREIGN
AFFAIRS; FRANCE.COM, A DOMAIN NAME,
Defendants-Appellants.
and
JEAN-YVES LE DRIAN, in his official capacity as
the French Republic’s Minister for Europe and
Foreign Affairs; VERISIGN, INC.,
Defendants.
________________________
No: 20-1016
(1:18-cv-00460-LO-IDD)
In accordance with the decision of this court, the
judgment of the district court is reversed. This case is
remanded to the district court for further proceedings
consistent with the court’s decision.

App.16a
This judgment shall take effect upon issuance of
this court’s mandate in accordance with Fed. R. App.
P. 41.
/s/ PATRICIA S. CONNOR
CLERK

App.17a
ORDER OF THE UNITED STATES
DISTRICT COURT FOR THE
EASTERN DISTRICT OF VIRGINIA
(DECEMBER 6, 2019)
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
ALEXANDRIA DIVISION
________________________
FRANCE.COM, INC.,
Plaintiff,
v.
THE FRENCH REPUBLIC, ATOUT FRANCE,
THE MINISTRY FOR EUROPE AND FOREIGN
AFFAIRS, JEAN-YVES LE DRIAN, IN HIS OFFICIAL
CAPACITY AS THE FRENCH REPUBLIC’S MINISTER FOR
EUROPE AND FOREIGN AFFAIRS, <FRANCE.COM>, A
DOMAIN NAME, AND VERISIGN, INC.,
________________________
Civil Action No. 1:18-cv-460
Before: Hon. Liam O’GRADY,
United States District Judge.
This matter comes before the Court on two motions
to dismiss under Federal Rule of Civil Procedure
12(b)(1): a Motion to Dismiss by Defendants Atout
France, the French Republic, the Ministry for Europe
and Foreign Affairs, and <france.com> (Dkt. 61) and
a Motion to Dismiss by Defendant Jean-Yves Le Drian
(Dkt. 59). Defendant Jean-Yves Le Drian raises an

App.18a
independent immunity argument and joins the other
Defendants in the arguments enumerated in their
motion to dismiss.
Also before the Court is a Suggestion of Immunity
Submitted by the United States of America. Dkt. 67.
The United States informs the Court of its interest in
the present action, and that “the Executive Branch
has decided to recognize Foreign Minister Le Drian’s
immunity from this suit.” Id. ¶ 1. Recognizing the
Executive Branch’s constitutional role in managing
foreign relations, the Court defers to the United
States’ determination of immunity in this case. As
such, the Motion to Dismiss by Jean-Yves Le Drian
(Dkt 59) is hereby GRANTED.
The Motion to Dismiss by Atout France, the
French Republic, the Ministry for Europe and Foreign
Affairs, and <france.com> (Dkt. 61) is hereby DENIED.
The Federal Rule of Civil Procedure 12(b)(1) arguments
raised in Defendants’ brief state that Plaintiff has
failed to allege an applicable exception to the Foreign
Sovereign Immunities Act (“FSIA”) and that the suit
violates the principles of comity. The Court does not
find that these issues call for dismissal at this time;
as noted in the Court’s Order of May 31, 2019, they
“would best be raised after discovery has concluded.”
Dkt. 40 at 1.
The Amended Complaint is hereby DISMISSED
as to Foreign Minister Le Drian only. The remaining
Defendants shall file an answer within ten days of this
Order. A scheduling order shall issue forthwith.
It is SO ORDERED.

App.19a
/s/ Liam O’Grady
United States District Judge
December 6, 2019
Alexandria, Virginia

App.20a
ORDER OF THE DISTRICT COURT
ON MOTION TO DISMISS
(MAY 31, 2019)
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
ALEXANDRIA DIVISION
________________________
FRANCE.COM, INC.,
Plaintiff,
v.
THE FRENCH REPUBLIC, ATOUT FRANCE,
THE MINISTRY FOR EUROPE AND FOREIGN
AFFAIRS, JEAN-YVES LE DRIAN, IN HIS OFFICIAL
CAPACITY AS THE FRENCH REPUBLIC’S MINISTER FOR
EUROPE AND FOREIGN AFFAIRS, <FRANCE.COM>, A
DOMAIN NAME, AND VERISIGN, INC.,
________________________
Civil Action No. 1:18-cv-460
Before: Hon. Liam O’GRADY,
United States District Judge.
This matter comes before the Court on a Motion to
Dismiss by Defendants Atout France, the French
Republic, the Ministry for Europe and Foreign Affairs,
and <france.com>, Dkt. 19, and a Motion to Dismiss
by Defendant Jean-Yves Le Drian. Dkt. 21.
The Motion to Dismiss by Jean-Yves Le Drian, Dkt.
21, is DENIED. The Court finds the issue of whether
Jean-Yves Le Drian was acting in his official or individual

App.21a
capacity requires a period of discovery and would best
be raised at the summary judgment stage.
The Motion to Dismiss by Atout France, the French
Republic, the Ministry for Europe and Foreign Affairs,
and <france.com>, Dkt. 19, is GRANTED IN PART
AND DENIED IN PART. The case is DISMISSED
WITHOUT PREJUDICE. The Court finds the Federal
Rule of Civil Procedure 12(b)(1) issues raised by Atout
France, the French Republic, the Ministry for Europe
and Foreign Affairs, and <france.com> regarding the
application of the Foreign Sovereign Immunities Act
would best be raised after discovery has concluded.
Therefore, to the extent their Motion relies on these
arguments, it is denied. However, the Court finds
Plaintiff’s Complaint lacks sufficient factual allegations
in order to state a claim upon which relief can be
granted. Thus, Defendant’s Motion to Dismiss is granted
pursuant to Federal Rule of Civil Procedure 12(b)(6).
Plaintiff must file an amended complaint within
thirty days of the date of this Order. Otherwise the
case will be dismissed with prejudice.
It is SO ORDERED.
/s/ Liam O’Grady
United States District Judge
May 31, 2019
Alexandria, Virginia

App.22a
ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE FOURTH CIRCUIT
DENYING PETITION FOR REHEARING
(APRIL 19, 2021)
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
________________________
FRANCE.COM, INC., A CALIFORNIA CORPORATION,
Plaintiff-Appellee,
v.
THE FRENCH REPUBLIC; ATOUT FRANCE; THE
MINISTRY FOR EUROPE AND FOREIGN
AFFAIRS; FRANCE.COM, A DOMAIN NAME,
Defendants-Appellants.
and
JEAN-YVES LE DRIAN, IN HIS OFFICIAL CAPACITY AS
THE FRENCH REPUBLIC’S MINISTER FOR EUROPE AND
FOREIGN AFFAIRS; VERISIGN, INC.,
Defendants.
________________________
No: 20-1016
(1:18-cv-00460-LO-IDD)

App.23a
The petition for rehearing en banc was circulated
to the full court. No judge requested a poll under
Fed. R. App. P. 35. The court denies the petition for
rehearing en banc.
For the Court
/s/ Patricia S. Connor
Clerk

App.24a
PETITION FOR REHEARING OF
APPELLEE FRANCE.COM, INC.
(APRIL 8, 2021)
RECORD NO. 20-1016
________________________
IN THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
________________________
FRANCE.COM, INC., A CALIFORNIA CORPORATION,
Plaintiff-Appellee,
v.
THE FRENCH REPUBLIC; ATOUT FRANCE;
THE MINISTRY FOR EUROPE AND FOREIGN
AFFAIRS; FRANCE.COM, A DOMAIN NAME,
Defendants-Appellants.
and
JEAN-YVES LE DRIAN, IN HIS OFFICIAL CAPACITY AS
THE FRENCH REPUBLIC’S MINISTER FOR EUROPE AND
FOREIGN AFFAIRS; VERISIGN, INC.,
Defendants.
________________________

App.25a
On Appeal from the United States District Court
for the Eastern District of Virginia, at Alexandria.
Liam O’Grady, Senior District Judge.
(1:18-cv-00460-LO-IDD)
PETITION FOR REHEARING EN BANC
OF APPELLEE FRANCE.COM, INC.
DAVID LUDWIG
BENJAMIN S. BARLOW
DUNLAP BENNETT &
LUDWIG PLLC

211 CHURCH STREET SE
LEESBURG, VA 20175
(703) 777-7319
Counsel for Appellee

C. ALEXANDER CHIULLI
BARTON GILMAN LLP
10 DORRANCE STREET,
8TH FLOOR
PROVIDENCE, RI 02903
(401) 273-7171
Counsel for Appellee

{ Table of Contents and
Table of Authorities Omitted }

App.26a
RULE 35(B) STATEMENT
Pursuant to Rule 35 of the Federal Rules of Appellate Procedure, Plaintiff-Appellant France.com respectfully files this Petition for Rehearing en Banc of the
panel opinion in France.com, Inc. v. French Republic,
No. 20-1016 (4th Cir. Mar. 25, 2021) (ECF No. 41). The
Panel’s opinion conflicts with controlling authority
and authoritative decisions in other Circuits and
raises questions of exceptional importance regarding
(1) United States citizens’ ability to enforce trademark rights against foreign sovereigns within the
United States, (2) the supremacy of United States
law, (3) the role of United States Courts in protecting
United States-based property and property rights,
and (4) the enforceability of United States intellectual
property rights.1
INTRODUCTION
France.com’s suit below asserts separate claims
for cybersquatting, reverse domain name hijacking,
expropriation, trademark infringement, and unfair
competition. France.com alleged each of those claims
to protect its United States-based property, namely,
property rights in the domain name <France.com> as
well as its rights in U.S. Trademark Registration No.
4514330 for FRANCE.COM.2

1 Defendants are collectively referred to herein as the French
Republic.
2 Registered in, among other classes, I.C. 35 for promoting tourism.

App.27a
THE LAWSUIT BELOW INVOLVES DIFFERENT RIGHTS
GIVING RISE TO DIFFERENT CLAIMS.
<France.com> was a domain/property owned by
Plaintiff and located in Northern Virginia – Plaintiff’s claim of expropriation is the avenue to address
the taking of that property. FRANCE.COM is a longstanding trademark owned by Plaintiff.3 Encroachment of trademark rights and resulting injury are
addressed through claims of trademark infringement,
cybersquatting, unfair competition, and reverse domain
name hijacking. Plaintiff’s trademark rights do not
arise from ownership of a domain but rather arise
statutorily by virtue of registration.4
Defendants have not disputed that they have
used both the Plaintiff’s <France.com> domain name
and thus the FRANCE.COM mark in the United States
since March 2018. Defendants use the <France.com>
domain name and FRANCE.COM to redirect traffic to
France’s own commercial tourism website at www.
france.fr.

3 United States Pat. & Trademark Off. v. Booking.com B. V., 140
S. Ct. 2298, 2302, 207 L.Ed.2d 738 (2020) (“The Lanham
Act . . . arms trademark owners with federal claims for relief;
importantly, it establishes . . . trademark registration. The owner
of a mark . . . enjoys “valuable benefits,” including a presumption
that the mark is valid [of validity].”)
4 Infringement upon intellectual property rights within the United
States is not permissible simply because actions do not constitute
infringement outside of the United States. Dismissing Plaintiff’s
infringement-related claims with prejudice – claims that have
had no factual discovery or testing by a lower Court – in effect,
holds they can.

App.28a
Below, Plaintiff argued the commercial activity
exception to FSIA immunity applies because its trademark claims are based upon Defendants’ activities
within the United States (including their ongoing
infringement and internet activity) and that the expropriation exception to the FSIA applied to the taking of
Plaintiff’s domain name. The court determined factual
discovery was required in order to resolve those FSIA
immunity questions. Defendants appealed, arguing
postponement of that determination, in forcing them
to continue litigation, denied immunity.
The Panel reviewed de novo questions of whether
the FSIA confers immunity to Defendants for their
unauthorized use of Plaintiff’s <France.com> domain
name and FRANCE.COM trademark, and whether
Plaintiffs plead facts sufficient to assert Defendants
actions in obtaining the domain name <France.com>
constituted expropriation.
Defendants argued transferring the domain did
not constitute expropriation and neither taking the
domain nor using it or FRANCE.COM was commercial
activity-thus shielding them from Plaintiff’s expropriation and infringement-related claims. Defendants
argued, and the panel agreed, that FSIA exceptions
are inapplicable as the gravamen of the case is an
undomesticated French Court order (currently on
appeal) granting the French Republic a right of
publicity to the generic word “France” and ordering
Plaintiff to voluntarily transfer the domain to Defendants or face a fine.5 Defendants avoided discussing
claims related to infringement, arguing Plaintiff’s

5 See ECF No. 24, at 8; JA 268-289, JA 293-304.

App.29a
lawsuit is merely sour grape re-litigation of the adverse
judgment which actually injured the Plaintiff.
The Panel explained that “whether the commercial activity exception applies . . . [requires] identifying
the conduct on which the action is “based.”6 The Panel
then determined that “[a]ll asserted injuries alleged
in the complaint flow from that French judgment”7
and “[t]he claims arise from [that] judgment.”8 By
treating the Plaintiff’s claims as a whole and focusing
its analysis on a single non-commercial factual predicate instead of the conduct that “actually injured”
France.com, the Panel placed this Circuit into conflict
with the United States Supreme Court and other
Circuits.
The Panel’s opinion conflicts with Supreme Court
decisions in Nelson and Sachs,9 as well as the Eleventh
Circuit’s Devengoechea decision10 the Second Circuit’s
Pablo Star decision,11 and this Circuit’s own Globe
Nuclear decision. 12 Each of those controlling or
6 ECF No. 41, at * 3, citing Saudi Arabia v. Nelson, 507 U.S. 349,
356, 113 S.Ct. 1471, 123 L.Ed.2d 47 (1993).
7 Id.
8 Id. at *5.
9 OBB Personenverkehr AG v. Sachs, 577 U.S. 27, 136 S. Ct. 390,
396, 193 L.Ed. 2d 269 (2015)
10 Devengoechea v. Bolivarian Republic of Venezuela, 889 F.3d
1213 (11th Cir. 2018)
11 Pablo Star Ltd. v. Welsh Gov’t, 961 F.3d 555, 562 (2d Cir. 2020),
cert. denied, 141 S. Ct. 1069 (2021)
12 Globe Nuclear Servs. & Supply (GNSS), Ltd. v. AO Techsnabexport, 376 F.3d 282 (4th Cir. 2004)

App.30a
authoritative decisions unambiguously provides that
a reviewing Court determines the gravamen – i.e., the
conduct that actually injured the plaintiff – in FSIA
exception cases on a claim-by-claim basis.
The Panel’s departure creates myriad problems
of exceptional public importance. It creates conflict
concerning the correct determination of “gravamen”
in FSIA exception cases within this Circuit and
elsewhere, expands FSIA immunity beyond its logical
limits, encourages foreign sovereigns to avoid judicial
review of foreign orders, and threatens the validity
and enforceability of United States intellectual property
rights. Accordingly, France.com respectfully seek rehearing en banc.
SPECIFIC QUESTIONS
1.

En banc Rehearing Is Necessary to Resolve
the Conflict Between the Panel’s Analysis and
(a) the Supreme Court’s Decisions in Nelson
and Sachs, (b) This Court and Other Circuit
Court Opinions Interpreting Them, and (c) Its
Expropriation Analysis

Summarizing its “gravamen” analysis, the Panel
held that “[t]he Corporation’s claims arise from an
adverse judgment of a foreign court . . . not . . . commercial activity that may have followed that transfer”
without individually examining the Plaintiff’s distinct
claims.13 The Panel treated the Plaintiff’s claims as

13 ECF No. 41, at *3 (The panel opinion, save discussing the expropriation exception, does not even mention Plaintiff’s individual
claims after describing the contents of the filed lawsuit in
recounting the background below).

App.31a
single unit and focused its analysis on a single preceding event, but not one causing Plaintiff’s various
injuries.14
The Panel’s approach conflicts with Supreme
Court precedent, and decisions of this Circuit, the
Eleventh, and Second Circuits. The Nelson and Sachs
decisions require courts to review a plaintiff’s claim on
a claim-by-claim basis to determine what conduct
each claim is “based-upon” and “actually injured” the
plaintiff. Here, Plaintiff’s claims each seek redress
for injuries occurring in the United States apart from
any “adverse judgment.” Plaintiff’s Amended Complaint alleges Defendants’ conduct in the United
States (i.e., the taking and infringement), are what
“actually injured” the Plaintiff. The Plaintiff’s cybersquatting, reverse domain name hijacking, trademark
infringement, and unfair competition are claims are
“based upon” admitted conduct by the Defendants in
the United States.

14 As stated in oral argument, Garb v. Republic of Poland, 440 F.3d
579, 586 (2d Cir. 2006) is inapplicable. Garb involved rights in
property confiscated by the Nazi regime. The Garb Plaintiffs
sued because of the confiscation – not expropriation because the
property was within the borders of Poland. The Garb Plaintiffs
then argued for jurisdiction because later commercial property
sales met the commercial activities exception. The Garb Court
said no, the later commercial activity does not render the taking
commercial under of FSIA. That is not this case. Plaintiff’s trademark related claims arise independently of the transfer of the
domain name. Indeed, if Defendant’s argument was correct,
every claim of infringement would center not on acts of infringement but rather the manner of acquisition of property later used
to infringe.

App.32a
2.

En Banc Rehearing Is Necessary to Address
the Ramifications of the Panel’s Opinion in
the Areas of Domestication of Foreign
Judgments and Intellectual Property Rights

Defendants did not domesticate the adverse foreign
judgment (which conflicted with United States intellectual property law by granting the French Republic
a “right of publicity” to the generic word “France”).15
The adverse foreign judgment carried no authority in
the United States and did not direct the domain
registrar or Defendants to transfer the domain name.
Plaintiff’s expropriation claim is “based upon” Defendants’ efforts in the United States to convince a United
States domain name registrar, Web.com, to divest
the Plaintiff of its United States property, the <France.
com> domain name. Based on the Panel’s opinion, a
foreign sovereign can argue in their own courts what
they cannot in the United States, obtain a favorable
ruling, and then privately enforce parts of that ruling
without ever presenting it to a United States court for
review – and in so doing make United States
property subject to foreign law. Here, intangibility of
the property allowed the transfer to occur without
United States court review, 16 and the Panel’s opinion stands for the proposition that the only path for

15 In the past, the French Republic expressly disclaimed such an
argument in the United States. See ECF 24, at 7-8.
16 The foreign judgment did not direct anyone except the Plaintiff (working through the prescribed channels of appealing) to
take action and Plaintiff had neither opportunity to prevent the
domain transfer in U.S. Courts nor notice of the need to take such
action.

App.33a
redress or to enforce rights in that transferred property
is in a foreign tribunal.
ARGUMENT
1.

NELSON, SACHS, AND THEIR PROGENY REQUIRE
THE GRAVAMEN OF A LAWSUIT TO BE ADDRESSED
ON A CLAIM-BY-CLAIM BASIS
a. Nelson and Sachs

In Saudi Arabia v. Nelson, a plaintiff argued for
jurisdiction over a sovereign for torts occurring overseas
on the theory that the action was “based upon” the
sovereign’s preceding commercial activity (job recruitment) in the United States. 17 The OBB Personenverkehr AG v. Sachs plaintiff argued for jurisdiction
over a sovereign for injuries sustained in a fall overseas
because of a preceding commercial activity (sale of a
train ticket) in the United States.18 In both instances,
the Supreme Court explained that it is the activity
giving rise to the specific claim that is key, not preceding conduct disconnected it. France.com concedes
that questions involving the domain transfer are
squarely at issue in its expropriation claim19 and
that damages arise because of the transfer, but all
other claims arise out of statutory trademark rights
17 Saudi Arabia v. Nelson, 507 U.S. at 356-358.
18 Sachs, 577 U.S. at 35-37.
19 The expropriation claim cannot center on a non-executable
judgment that did not give the defendants or anyone else rights
to act. Damage and injury to Plaintiff was caused not by the
French court’s direction to anyone but rather by what actors
decided to do with that judgment (a judgment on appeal).

App.34a
and injuries/damages related to the rights in the
trademark – not rights in the domain.
The Panel misapplication of Nelson and Sachs (in
dismissing all commercial activity related to the
elements of France.com’s actual claims because of
what they found to be non-commercial activity in a
preceding event) is what Sachs expressly warned
against. The Sachs Court wrote,
We cautioned in Nelson that the reach of
our decision was limited, and similar caution
is warranted here . . . we consider here only
a case in which the gravamen of each claim
is found in the same place.
Sachs, 577 U.S. at 36 n.2 (internal citation omitted)
(emphasis added). The Supreme Court expressly noted
the importance of a claim-by-claim analysis and the
possibility that gravamina for different claims might
lie in different places.
This Circuit, in Globe Nuclear Servs. & Supply
(GNSS), Ltd. v. AO Techsnabexport, heeded the
Supreme Court’s direction. In reversing the district
court decision finding a lawsuits gravamen our side of
the each claim’s elements, this Court explained that
“[t]he district court’s capacious view of the conduct
upon which [the] lawsuit is “based” cannot be
reconciled with the Supreme Court’s decision in
Nelson.” Id. at 286-87. This Court highlighted that
under Nelson a court “must turn [its] attention . . . to
the specific claim[s] . . . asserted . . . and the elements
of claim[s] that, if proven, would entitle [a plaintiff] to
relief.” Id. Just as the district court’s decision in Globe
conflicted with Nelson, so too does the Panel’s.

App.35a
b. Conflicting Decisions in Other Circuits
The Eleventh Circuit, in Devengoechea v. Bolivarian Republic of Venezuela, 889 F.3d 1213 (11th Cir.
2018), provided similar guidance. The Eleventh Circuit
explained that “the [Sachs] Court found that the conduct making up the gravamen of Sachs’s suit happened
in Austria because [a]ll . . . claims turn[ed] on the
same tragic episode [occurring there].” Devengoechea,
889 F.3d at 1223. The Eleventh Circuit stressed that
Sachs “expressly recognized that the gravamina of
different claims may occur in different locations.” Id.
The Eleventh Circuit specified that reviewing courts
must “identify the conduct on which [plaintiff] bases
his suit” and look to “the conduct that actually
injured [him or her]” and “therefore that makes up
the gravamen of [his] lawsuit.” The Eleventh Circuit
then proceeded to examine the plaintiff’s two separate claims.
Most recently, the Second Circuit in Pablo Star
Ltd. v. Welsh Gov’t, 961 F.3d 555, 562 (2d Cir. 2020)20,
applied the above guidance in the context of intellectual property infringement case against a
sovereign. In Pablo Star, the Welsh government
argued (as the Defendants have below) that the promotion of tourism is not commercial activity. In
accord with Sachs and Nelson, the Second Circuit
focused on the conduct of the defendant that actually
injured the plaintiff. It specifically focused on the act
of alleged infringement itself, and held that “[f]or
purposes of the commercial-activity exception, the
relevant “activity” on which the claims are based is
the . . . [allegedly infringing] use of the photographs
20 cert. denied, 141 S. Ct. 1069 (2021).

App.36a
in question [by the Welsh government.” Pablo Star
Ltd., 961 F.3d at 560-61.
Hence, no matter the type of claim, reviewing
courts have taken a consistent approach in understanding that it is the actual claims presented that
are to be examined in a gravamen analysis. Though
seemingly different on their faces, when examined
the cases are similar. Nelson’s torture, Sachs’ fall,
and Garb’s property confiscation couldn’t survive the
analysis because none of the elements of the claims
involved Plaintiffs’ alleged threshold commercial
activity. Devengoechea was allowed to proceed because the commercial activity alleged was directly
tied to the individual claims made. In Pablo Star, the
suit could proceed because the commercial activity
alleged was the infringement alleged. In all of the cases,
with all of the claims, one thing remains constant:
Nelson and Sachs require claim-by-claim analysis of
the conduct of the Defendant that actually injured the
plaintiff21
c. Application of the Nelson/Sachs Claim By
Claim Analysis to the Current Suit
This Court has explained the elements of each of
the claims made by France.com.22 As detailed below,
21 Unchallenged recent District of Columbia opinions reached
similar results. See Jam v. Int’l Fin. Corp., 481 F. Supp. 3d 1
(D.D.C. 2020); Rodriguez v. Pan Am. Health Org., No. CV 20-928
(JEB), 2020 WL 6561448 (D.D.C. Nov. 9, 2020).
22 See Lamparello v. Falwell, 420 F.3d 309, 318 (4th Cir. 2005)
(explaining elements of cybersquatting); Barcelona.com, Inc. v.
Excelentisimo Ayuntamiento De Barcelona, 330 F.3d 617, 626
(4th Cir. 2003) (reverse domain name hijacking); Dkt. 41, citing
Zappia Middle E. Constr. Co. v. Emirate of Abu Dhabi, 215 F.3d

App.37a
only the claim of expropriation can be argued to have
the manner of transfer of the domain or any other
property as an element. The transfer of the domain
name to France is only at issue in the claim of expropriation, where a party must show both that rights in
property are at issue and that the property was taken.
See Zappia, 215 F.3d at 251. Reverse domain name
hijacking requires a Plaintiff to show that it was a
registrant of a domain name that was transferred because of a registrar’s policy – but such a claim is about
infringement23 See Barcelona.com, 330 F.3d at 626.
Each of the remaining three claims deals only with
statutory rights and remedies created by the
Lanham Act in Plaintiff’s registered trademark. Those
claims do not revolve around, hinge upon, or even
involve as a defense one’s ownership of a domain. In
response to a claim of trademark infringement or
unfair competition, the issue is the protection of a
Plaintiff’s rights in a trademark and not whether or
not a defendant has rights in an object they are using
to infringe. Ownership or possession of a domain does
not invalidate one’s rights in a valid registered trademark, especially one such as FRANCE.COM that was

247, 251 (2d Cir. 2000) (expropriation); Rosetta Stone Ltd. v.
Google, Inc., 676 F.3d 144, 152 (4th Cir. 2012) (TM infringement);
Lone Star Steakhouse & Saloon, Inc. v. Alpha of Virginia, Inc.,
43 F.3d 922, 930 (4th Cir. 1995) citing 15 U.S.C. § 1114(1) (unfair
competition).
23 In reverse domain name hijacking, a Plaintiff’s domain gets
transferred because an owner of a trademark complains to a
registrar that the domain infringes upon their trademark – the
Plaintiff then files suit and shows that their use of the domain
was actually not infringing).

App.38a
registered decades prior to the Defendant’s use of a
domain (however obtained).
d. Expropriation
The Panel’s analysis of the expropriation claim is
perplexing. It states “[t]he complaint’s factual allegations
do not permit a reasonable inference that its claims
satisfy the expropriation exception,” but after reciting
uncertainty about other elements it based its holding
on Plaintiff’s supposed “failure to identify any
international law that [the] expropriation violated. Dkt.
41, at *5. Despite briefing and oral argument, the Panel
apparently understood the alleged violation of
international law to be allegations “the French court
applied French law in a way that conflicts with or is
hostile to the laws of the United States.”
Though the decision and rationale is indeed hostile
to United States law, the Amended Complaint is replete
with allegations that the transfer of the domain
occurred without compensation in violation of international law. As Plaintiff argued, “a state is responsible under international law for injury resulting from:
(1) a taking by the state of the property of a national
of another state that . . . is not accompanied by
provision for just compensation. . . . ” RESTATEMENT
(THIRD) OF FOREIGN RELATIONS LAW § 712
(AM. LAW INST. 1987).
2.

The Panel’s Opinion Impact on United States
Intellectual Property Rights and Questions of
Domestication of Foreign Judgments

If the Panel opinion stands, federally registered
intellectual property rights are at risk so long as there
is a foreign government willing to use their own courts

App.39a
to stake a claim to those same rights. That is no
overstatement. In determining that the gravamen of
any infringement lawsuit is actually a factual predicate
rather the infringement itself, and thus non-commercial, the Court has determined that, in the Fourth
Circuit, the foreign actor is shielded by the FSIA as
long as the factual predicate is non-commercial.
Further, the Court has invited foreign actors to
simply avoid the domestication process and judicial
review and enforce such orders privately – and yet
claim the benefits of review and domestication should
their private efforts be challenged. The Court’s fundamental misapplication of the gravamen analysis and
apparent grant of deference and comity to a foreign
judicial decision never subjected to challenge or even
the slightest of judicial reviews warrants en banc
review.
CONCLUSION AND RELIEF SOUGHT
For the foregoing reasons, Appellee France.com
respectfully requests that this Court grant this Petition
for Rehearing En Banc, reverse the District Court’s
Order(s) dismissing the Complaint and Amended
Complaint, and reinstate and remand the case for
further proceedings on the merits.
Respectfully submitted,
FRANCE.COM,
By Counsel.

App.40a
/s/ Ben Barlow
David Ludwig
(VA Bar No. 73157)
Benjamin S. Barlow
(VA Bar No. 67933)
Dunlap Bennett & Ludwig PLLC
211 Church Street, SE
Leesburg, VA 20175
Tel: (703) 777-7319
Fax: (703) 777-3656
Emails:
dludwig@dbllawyers.com
bbarlow@dbllawyers.com
C. Alexander Chiulli
Barton Gilman LLP
One Financial Plaza, 18th Floor,
Providence, RI 02903
Tel: (401) 273-7171
Emails: achiulli@bglaw.com
Counsel for France.com
April 8, 2021

